              REDACTED VERSION




AUDIT REPORT


THE ADMINISTRATION
 OF CONTRACTS AND
  AGREEMENTS FOR
LINGUISTIC SERVICES
    BY THE DRUG
   ENFORCEMENT
  ADMINISTRATION




  AUGUST 2002

      02-33



              REDACTED VERSION
                                   REDACTED VERSION

          THE ADMINISTRATION OF CONTRACTS AND AGREEMENTS
                 FOR LINGUISTIC SERVICES BY THE DRUG
                    ENFORCEMENT ADMINISTRATION

                                  EXECUTIVE SUMMARY

        The Office of the Inspector General, Audit Division, has completed an
audit of the Administration of Contracts and Agreements for Linguistic Services
by the Drug Enforcement Administration (DEA). At the time of our audit
fieldwork, the DEA had awarded six contracts, with a total prospective value
if fully utilized of about $132 million to obtain linguistic services to perform
monitoring, transcription, and translation services. The contracts were
awarded for services at the DEA’s field divisions in Chicago, Dallas, Houston,
Miami, New York, and San Diego. The DEA had also entered into a
Memorandum of Understanding (MOU) with the [DELETED] to obtain
linguistic services to perform translation and transcription services. The total
amount of the reimbursable agreements executed under the MOU since
Fiscal Year (FY) 1997 was approximately $5.3 million of which $4.1 million
had been paid to the [DELETED].

       We performed individual contract audits for the DEA’s linguistic services
                                                     1
contracts in Dallas, Houston, Miami, and San Diego to determine if the:
(1) DEA adequately monitored the cost of the contracts and the performance of
the contractors, (2) recipients of the contracted services were satisfied with the
quality of those services, and (3) DEA complied with the Government
Performance Results Act (GPRA) requirements as they relate to the linguistic
services contracts and agreements. The four contracts that we audited had a
total prospective value if fully utilized of $44.5 million of the $132 million
awarded by the DEA for its six linguistics contracts. Of the $44.5 million
awarded for the four contracts we reviewed, the contractors had been
reimbursed $9,482,139. These audits showed that while the Assistant United
States Attorneys and DEA case agents indicated that the quality of the
linguistic services were adequate, weaknesses existed in the DEA’s monitoring
of payments to the contractors and in the contractors’ claims for
reimbursement. As a result, we questioned $2,816,581 of the $9,482,139




1
    We did not audit the Chicago contract because at the time of our audit fieldwork the contract
    was ending and a new contract was about to be awarded. We did not audit the New York
    contract because it had recently begun and the contractor had submitted few invoices as of
    July 30, 2001.




                                   REDACTED VERSION
                                    REDACTED VERSION

                                                                    2
paid to the contractors in our individual contract audits . We found that
several weaknesses had occurred on more than one contract, indicating a need
for additional guidance from the DEA to ensure the field divisions properly
administer the contracts. Specifically, the:

         •   contractors at the four locations were paid $425,580 for linguistic
             services not authorized by the contract delivery orders or that
             exceeded the contract delivery order amounts.

         •   contractors at the four locations were paid $529,833 for linguistic
             services performed outside the allowable performance period of the
             delivery orders.

         •   contractors at the four locations were paid $990,152 for work begun
             before delivery orders were approved by the Contracting Officer.

         •   contractors at three of the four locations (Dallas, Houston, and San
             Diego) were paid $353,636 for hours worked by the contractors’
             personnel, but the contractors did not provide the DEA with the
             requested timesheets to support the hours billed.

         •   contractors at two of the four locations (Dallas and San Diego) were
             paid $5,949 for hours not supported by the timesheets that were
             provided to the DEA by the contractors.

         •   contractors at two of the four locations (Dallas and Houston) were
             paid $297,866 for new core contractor personnel without requesting
             and obtaining written approval from the DEA to change the core
             personnel, as required by the contracts.

         •   contractors at three of the four locations (Dallas, Houston, and Miami)
             were paid $21,576 for more hours than the DEA’s sign-in/sign-out
             logs showed were worked.

         •   contractors at three of the four locations (Dallas, Houston, and Miami)
             did not properly complete the sign-in/sign-out logs.



2
    The Inspector General Act of 1988 contains our reporting requirements for questioned
    costs. However, not all findings are dollar-related. See Appendix II for a breakdown of
    our dollar-related findings and for a definition of questioned costs. The $2,816,581 in
    questioned costs identified in the individual audits is not included again in the schedule of
    dollar-related findings at Appendix II of this report. This amount contains some duplicate
    costs because some costs were questioned under multiple categories. However, the
    amounts questioned on the contracts were based on a sample of invoices reviewed for
    each category and are not projected to the total universe of invoices paid.

                                                 ii
                                   REDACTED VERSION
                                  REDACTED VERSION


         •   contractors at three of the four locations (Dallas, Houston, and Miami)
             were paid $62,271 for more than one team leader per work shift even
             though the contracts were set up to generally have only one team
             leader per shift.

         •   contractors at two of the four locations (Dallas and Miami) were paid
             $30,957 in overtime costs that were either not authorized or not
             properly approved.

         •   contractors at three of the four locations (Dallas, Houston, and San
             Diego) were paid $73,238 in unauthorized or unsupported travel
             related expenses.

         •   contractors at two of the four locations (Dallas and Miami) submitted
             invoices more frequently than required by the contract, thereby
             increasing the DEA’s administrative costs to process the payments.

         •   DEA at two of the four locations (Dallas and Miami) used Blanket
             Purchase Agreements (BPAs) to obtain linguistic services that would
             have been much less costly through the contracts. We determined
             that by using the BPAs, the DEA spent at least $58,542 more than if it
                                                                     3
             had used the contracts to obtain the linguistic services .

         •   Contracting Officer’s Technical Representatives (COTRs) at all four
             locations did not provide adequate oversight of the contracts.

       In the individual contract audit for each location, we recommended that
                                        4
the DEA remedy the questioned costs that we identified in each of the
preceding areas. In this report, we recommend that the DEA Administrator:
(1) issue guidance to the field division COTRs instructing them to ensure that
the contract requirements are properly completed, and (2) require the
Contracting Officer to perform random checks to ensure that the invoices
certified by the COTRs are accurate.

      We also reviewed the MOU and reimbursable agreements with the
[DELETED] and determined that while the users of the [DELETED] services
were generally satisfied with the quality of the services, significant weaknesses
existed in the [DELETED] claims for reimbursement and in the DEA’s

3
    Of the $58,542, $33,019 was for the contract in Dallas. In this case, the DEA was the
    cause for the BPA being used instead of the contract. Therefore, the $33,019 was not
    reported as a questioned cost in the Dallas report. The remaining $25,523 was reported
    as a questioned cost in the contract audit report for Miami.
4
    Questioned costs may be remedied by offset, waiver, recovery of funds, or the provision of
    supporting documentation.


                                               iii
                                  REDACTED VERSION
                                  REDACTED VERSION

monitoring of payments to the [DELETED]. As a result, we questioned
          5
$518,912 of the funds paid to the [DELETED] for performance from July 1,
1997, through July 30, 2001. This amount represents about 13 percent of the
$4.1 million reimbursed to the [DELETED]. Specifically, we found that the:

         •   DEA eliminated the hourly cost control from the FY 2000 and
             FY 2001 agreements.

         •   DEA did not modify the FY 2000 agreement before paying the
             [DELETED] $111,842 in costs above the amount allowed in the
             FY 2000 agreement.

         •   [DELETED] was paid $269,476 for: (1) technical and administrative
             personnel not allowed in the FY 1997, FY 1998, and FY 1999
             agreements; and (2) personnel costs paid by another Federal agency.

         •   [DELETED] was paid $63,083 for hours worked by part-time linguists
             that exceeded the hours or months allowed by the agreements.

         •   [DELETED] was paid $45,163 for unauthorized travel related
             expenses.

         •   [DELETED] was paid $7,405 for personnel costs not supported by
             payroll records.

         •   [DELETED] was paid $7,295 for personnel costs at part-time average
             hourly rates that exceeded the rates allowed by the FY 1998 and
             FY 1999 agreements.

         •   [DELETED] was paid $5,838 for awards not allowed by the FY 1999
             agreement.

         •   [DELETED] was paid $5,804 in administrative costs that exceeded the
             amounts allowed by the FY 1998 and FY 2000 agreements.

         •   [DELETED] was paid $3,006 in overtime costs not authorized by the
             agreements.

         •   DEA did not effectively monitor the costs billed by the [DELETED].

       We recommend that the DEA Administrator: (1) reestablish hourly rates
for linguists in future reimbursable agreements, (2) remedy the questioned

5
    The questioned costs that we identified for the reimbursable agreements were based on a
    sample of invoices reviewed for each category and are not projected to the total universe
    of invoices paid.

                                               iv
                                  REDACTED VERSION
                           REDACTED VERSION

costs we identified in each of the preceding areas, and (3) establish written
procedures for reviewing invoices and overseeing the [DELETED] agreements.

     These items are discussed in greater detail in the Findings and
Recommendations section of the report. Our audit objectives, scope and
methodology appear in Appendix I.




                                      v
                           REDACTED VERSION
                                   REDACTED VERSION

                                   TABLE OF CONTENTS
                                                                                               Page

INTRODUCTION ................................................................................. 1

   Background...................................................................................... 1

FINDINGS AND RECOMMENDATIONS................................................. 3

1. COMPLIANCE WITH ESSENTIAL CONTRACT REQUIREMENTS .................. 3

   Recipients Were Generally Satisfied With the Quality of Contract
    Services ........................................................................................ 3

   Contractors Submitted Invoices for Services Not Authorized
    by Delivery Orders .......................................................................... 4

   Contractors Submitted Invoices for Services Performed Outside
    the Performance Period Authorized by the Delivery Orders ................... 4

   Contractors Submitted Invoices for Services Begun Before the
    Delivery Orders Were Issued by the Contracting Officer ....................... 4

   Contractors’ Invoices Not Supported by Timesheets .............................. 5

   Contractors Changed Key Personnel Without Written Approval
       from the DEA ............................................................................. 6

   Invoices Questionable Due to Sign-in/Sign-out Log Discrepancies ........... 6

   Contractors Billed for Excessive Team Leader Personnel......................... 7

   Contractors Billed Overtime That Was Either Not Approved, Approved
    After the Overtime Was Worked, or at Rates Higher Than Approved ...... 8

   Contractors Billed for Excess Travel Expenditures.................................. 8

   Contractors Submitted Invoices More Frequently Than Allowed
    by the Contracts ............................................................................. 9

   DEA’s Use of Blanket Purchase Agreements Instead of the Linguistic
    Contracts Resulting in Higher Costs for Linguistic Services ................... 9




                                   REDACTED VERSION
                                    REDACTED VERSION

   The Contracting Officer’s Technical Representatives Did Not
    Adequately Oversee the Contracts .................................................... 11

   Recommendations ............................................................................ 12

2. COMPLIANCE WITH INTERAGENCY REIMBURSABLE AGREEMENT
   REQUIREMENTS ............................................................................... 14

   Most Recipients Were Generally Satisfied With the Quality of Services
    Provided by the [DELETED] .............................................................. 14

   The DEA Eliminated the Hourly Cost Control from the FY 2000 and
    FY 2001 Reimbursable Agreements ................................................... 15

   The [DELETED] Billed for Costs in Excess of the FY 2000 Agreement
    Limit ............................................................................................. 15

   The [DELETED] Billed for Personnel Not Allowed ................................... 16

   The [DELETED] Billed for More Hours than Allowed for Part-time
    Linguists ........................................................................................ 16

   The [DELETED] Billed for Excess Travel Expenditures ............................ 17

   The [DELETED] Billed for Personnel Costs Not Supported by Payroll
    Records ......................................................................................... 18

   The [DELETED] Billed Higher Hourly Rates Than Allowed........................ 18

   The [DELETED] Billed for Awards Not Allowed....................................... 19

   The [DELETED] Billed for Unallowable Administrative Costs .................... 19

   The [DELETED] Billed for Overtime Not Allowed .................................... 20

   The DEA Did Not Effectively Monitor the Costs Billed by the [DELETED] ... 21

   Recommendations ............................................................................ 22

OTHER MATTERS.............................................................................. 23

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ................ 24




                                    REDACTED VERSION
                          REDACTED VERSION

APPENDIX I - OBJECTIVES, SCOPE AND METHODOLOGY........................ 25

APPENDIX II - SCHEDULE OF DOLLAR-RELATED FINDINGS .................... 30

APPENDIX III – THE DRUG ENFORCEMENT ADMINISTRATION’S
               RESPONSE TO THE DRAFT AUDIT REPORT .................... 31

APPENDIX IV – OFFICE OF THE INSPECTOR GENERAL, AUDIT
              DIVISION, ANALYSIS AND SUMMARY OF ACTIONS
              NECESSARY TO CLOSE THE REPORT ............................. 41




                          REDACTED VERSION
                                  REDACTED VERSION

                                     INTRODUCTION

Background

       The mission of the Drug Enforcement Administration (DEA) is to
enforce controlled substances laws and regulations and to bring to the
criminal and civil justice system those individuals and organizations involved
in the growing, manufacture, or distribution of controlled substances either
in or destined for the United States. Among the ways that the DEA seeks to
meet its mission is through telephonic monitoring of court ordered
nonconsensual intercepts, subsequent transcription of recorded material,
and the translation of written documents. At the time of our audit fieldwork,
the DEA had awarded the following contracts for its Division offices to obtain
linguistic services to perform monitoring, transcription, and translation
services.

                           DEA Contracts for Linguistic Services

      DEA Division Office\        Contract           Award
           Contractor             Number            Amount          From          To
     Chicago\                                                                            6
     [DELETED]                 [DELETED]            $3,164,463     10/01/95    09/30/00
     Dallas\
     [DELETED]                 [DELETED]            $2,609,538     07/01/99     06/30/04
     Houston\
     [DELETED]                 [DELETED]           $13,618,439     04/06/00     09/30/04
     Miami\
     [DELETED]                 [DELETED]           $15,174,909     06/30/97     06/30/02
     New York\
     [DELETED]                 [DELETED]           $84,411,097     12/01/00     11/30/05
     San Diego\
     [DELETED]                 [DELETED]           $13,125,020     07/14/99     07/13/04
      Total                                       $132,103,466
           Source: The DEA Contracting Officer

      We conducted individual audits of the contracts for Dallas, Houston,
Miami, and San Diego. The New York contract was not audited because it
had recently begun and the contractor had submitted few invoices as of
July 30, 2001. The Chicago contract was not audited because it was ending
and a new contract was about to be awarded. The total amount of funds
awarded for the four contracts reviewed was about $44.5 million. At the
time of our audit work, the total amount of funds reimbursed to the
contractors for the four contracts reviewed was about $9.5 million.



6
    This contract was extended to March 31, 2001, or until a new contract was awarded.


                                              1

                                  REDACTED VERSION
                                   REDACTED VERSION

       The DEA had also established a Memorandum of Understanding (MOU)
with the [DELETED] to obtain linguistic services to perform translations and
transcriptions of written documents, audio and videotapes, and other
materials. The [DELETED] became involved with the DEA through the
National Guard Counterdrug Activities Program established by Congress
under the Controlled Substances Act. Under this program, the [DELETED]
makes linguists available to the DEA through reimbursable agreements at a
                                                           7
cost lower that the DEA can obtain through other methods . The following
table shows the scope of the reimbursable agreements entered into through
the MOU for each fiscal year.

                            Amount of Reimbursable Agreements
                            Between the DEA and the [DELETED]

                          Fiscal          Award             Amount
                           Year          Amount               Paid
                           1997               $50,000            $20,583
                           1998              $275,000          $261,437
                           1999            $1,500,000          $831,625
                           2000            $1,500,000        $1,611,842
                           2001            $2,000,000        $1,409,357
                          Total:           $5,325,000        $4,134,844
                              Source: The DEA Program Analyst for
                                      the Reimbursable Agreements




7
    The [DELETED] is an important source of linguists because the State of [DELETED] is
    highly populated with bilingual persons, which makes it easier for the [DELETED] to recruit
    bilingual civilians.

                                               2

                                   REDACTED VERSION
                                  REDACTED VERSION

                       FINDINGS AND RECOMMENDATIONS

         1. COMPLIANCE WITH ESSENTIAL CONTRACT REQUIREMENTS

         We audited four of the six linguistic services contracts awarded by the
         DEA for its field divisions and found that while the DEA case agents and
         Assistant United States Attorneys (AUSAs) were generally satisfied with
         the quality of the linguistic services provided by the contractors,
         weaknesses existed in the: (1) DEA’s monitoring of payments to the
         contractors, (2) contractors’ claims for reimbursement, and (3) DEA’s
         use of Blanket Purchase Agreements for services available through the
         contracts. As a result, in the individual audit reports on each contract we
                                   8
         questioned $2,816,581 of the $9,482,139 paid to the contractors. We
         often found that the same weaknesses occurred on more than one
         contract, indicating a need for additional guidance from the DEA to
         ensure that its field divisions properly administer the contracts.

Recipients Were Generally Satisfied With the Quality of Contract
Services

      For the contracts in Dallas, Houston, Miami, and San Diego, we
randomly selected a sample of invoices paid under the contracts and
determined the cases associated with those invoices. We then identified the
DEA case agents and AUSAs that were responsible for managing and
prosecuting these cases. We either interviewed or sent surveys to the DEA
case agents and AUSAs to determine their views of the contractors’
performance. The DEA case agents and the AUSAs were generally pleased
with the quality of linguistic services provided on the cases. Many of the
case agents stated that the translations and transcriptions were instrumental
in dismantling or disrupting the targeted group or organization. Also, many
case agents stated that the results of the investigations could not have been
achieved without the use of linguists to interpret communications. Several
of the AUSAs pointed out that having the same linguists working from the
beginning of the case to its conclusion resulted in a better quality product.




8
    This amount contains some duplicated costs as some costs were questioned under multiple
    categories. However, the questioned costs were based on a sample of invoices reviewed
    for each category and are not projected to the total universe of invoices paid. In the
    individual audit reports for each contract, we recommended that the DEA remedy these
    questioned costs. Questioned costs may be remedied by offset, waiver, recovery of funds,
    or the provision of supporting documentation.

                                              3

                                  REDACTED VERSION
                            REDACTED VERSION

Contractors Submitted Invoices for Services Not Authorized by
Delivery Orders

       The contractors at the four locations billed and were paid $425,580 for
individual services not authorized by the contract delivery orders. The
contracts require that delivery orders be issued to the contractors for all
services ordered by the DEA. The contractor is only authorized to perform and
be paid for the services and amounts identified in the delivery orders. We
randomly selected a sample of delivery orders issued by the DEA for each of
the four contracts reviewed. For the sample delivery orders, we obtained the
associated invoices and compared the services and amounts paid on the
invoices to the services and amounts ordered by the delivery orders. In total,
we sampled 284 of the 1,462 invoices paid to the contractors at the four
locations. The 284 invoices totaled $2,003,725. We determined that the DEA
paid the contractors $425,580 that was for either services not ordered by the
delivery orders, or amounts higher than ordered by the delivery orders.

Contractors Submitted Invoices for Services Performed Outside the
Performance Period Authorized by the Delivery Orders

       The contractors at the four locations billed and were paid $529,833 for
linguistic services performed outside the performance periods authorized by
the delivery orders. We randomly selected a sample of delivery orders issued
by the DEA for each of the four contracts reviewed. For the sample delivery
orders, we obtained the associated invoices. We then compared the
performance periods contained in the delivery orders to the actual performance
periods billed by the contractor for the services ordered. In total, we sampled
409 of the 1,462 invoices paid to the contractors at the four locations. The
409 invoices totaled $2,846,406. We determined that the contractors
submitted invoices for services outside the performance periods specified in the
delivery orders. The DEA paid the contractors $529,833 in unallowable costs
for these services.

Contractors Submitted Invoices for Services Begun Before the Delivery
Orders Were Issued by the Contracting Officer

      The contractors at the four locations billed and were paid $990,152 for
services begun before the Contracting Officer issued the delivery orders. We
randomly selected a sample of delivery orders issued by the DEA for each of
the four contracts reviewed. For the sample delivery orders, we obtained the
associated invoices. We then compared the performance periods contained in
the invoices to the dates the Contracting Officer issued the delivery orders
authorizing the services. We determined that the contractors billed for
services that were begun before the delivery orders were issued. In total, we
sampled 409 of the 1,462 invoices paid to the contractors at the four locations.
 The 409 invoices totaled $2,846,406. The DEA paid the contractor $990,152

                                       4

                            REDACTED VERSION
                            REDACTED VERSION

in unallowable costs for these services. According to the contracts, delivery
orders shall be signed by the Contracting Officer. As such, any invoice
submitted by the contractors for services begun before the receipt of a delivery
order issued by the Contracting Officer are unallowable.

Contractors’ Invoices Not Supported by Timesheets

      Invoices Not Supported Because of Missing Timesheets

      The contractors at three of the four locations (Dallas, Houston, and
      San Diego) billed and were paid $353,636 for which the contractors
      did not provide supporting timesheets. We randomly selected a
      sample of invoices paid by the DEA under each of the four contracts
      reviewed. In total, we sampled 427 of the 1,462 invoices paid to the
      contractors at the four locations. The 427 invoices totaled
      $2,638,261. For the sample invoices, the contractors did not provide
      the timesheets to the DEA to support the amounts billed on 39 of the
      239 invoices at three of the four locations. The contracts require the
      contractors to make the timesheets available to the DEA. The total
      amount of the 239 invoices sampled at the three locations was
      $1,951,572, of which we questioned the $353,636 paid for the 39
      invoices as unsupported.

      Invoices Not Supported By Available Timesheets

      The contractors at two of the four locations (Dallas and San Diego) billed
      and were paid $5,949 for hours not supported by timesheets provided to
      the DEA by the contractors. We randomly selected a sample of invoices
      paid by the DEA under each of the four contracts reviewed. For the
      sample invoices, we obtained the contractors’ summary timesheets that
      supported the invoices and the contractors’ bi-weekly timesheets that
      supported the summary timesheets. In total, we sampled 302 of the
      1,462 invoices paid to the contractors at the four locations. The 302
      invoices totaled $1,795,580. We determined that the contractors at two
      of the four locations (Dallas and San Diego): (1) submitted invoices that
      contained more hours than was supported by the summary timesheets,
      or (2) prepared summary timesheets that contained more hours than
      was supported by the bi-weekly timesheets. The total amount of the 49
      invoices sampled at the two locations was $458,105, of which we
      questioned $5,949 as unsupported.




                                       5

                            REDACTED VERSION
                            REDACTED VERSION

Contractors Changed Key Personnel Without Written Approval from
the DEA

       The contractors at two of the four locations (Dallas and Houston) billed
and were paid $297,866 for new core contractor personnel without requesting
and obtaining prior written approval from the DEA to claim these core
personnel. According to the contracts, the contractors must provide a
permanent group of linguists located in the [DELETED]of the field divisions.
These linguists are designated as the core unit. One of the permanent linguists
is designated as the site supervisor. The other permanent linguists are
designated as team leaders. The contracts also state that any additions to the
core unit or key personnel must be approved by the Contracting Officer’s
Technical Representative (COTR) in writing prior to the linguists charging time
under the contract. Also, the contractor must notify the COTR in writing, at
least 5 calendar days in advance if any core unit or key personnel are to be
removed or diverted from the contract.

      We randomly selected a sample of invoices paid by the DEA under three
of the four contracts. We did not review this issue for the Miami contract
because the contract did not contain this requirement. In total, we sampled 84
of the 513 invoices paid the contractors at the three locations. The 84 invoices
totaled $699,948. We found that at two of the three locations (Dallas and
Houston), the contractors made changes to the core unit personnel, but never
received prior approval from the DEA to do so. The total amount of the 78
invoices sampled at the two locations was $467,841, of which we questioned
the $297,866 paid to the two contractors for core unit personnel changes
without approval as unsupported.

Invoices Questionable Due to Sign-in/Sign-out Log Discrepancies

      Contractors Billed for More Hours Than Worked Per the Sign-
      in/Sign-out Logs

      The contractors at three of the four locations (Dallas, Houston, and
      Miami) billed and were paid $21,576 for more hours than the DEA’s sign-
      in/sign-out logs showed were worked. To determine whether the
      contractors billed the DEA correctly, we randomly selected a sample of
      invoices paid by the DEA under three of the four contracts reviewed.
      We did not review this issue for the San Diego contract because at the
      start of our audit, the San Diego office did not maintain sign-in/sign-
      out logs. In total, we sampled 268 of the 1,440 invoices paid to the
      contractors at the three locations. The 268 invoices totaled
      $1,127,421. We then compared the hours billed on the invoices to the
      hours on the sign-in/sign-out logs. We found that the contractors at the
      three locations billed and were paid $21,576 for 715.5 more hours than
      were allowed based on the sign-in/sign-out logs. These costs are

                                       6

                            REDACTED VERSION
                            REDACTED VERSION

      unallowable.

      Questionable Entries on Sign-in/Sign-out Logs

      At each of the four locations, we reviewed the sign-in/sign-out logs for
      the sample invoices paid by the DEA. At two of the four locations (Dallas
      and Houston), we identified 61 instances in which contractor personnel
      signed in on the DEA’s sign-in/sign-out log at an earlier time than the
      person who signed in before them. At the same two locations, we
      identified 264 instances in which the time recorded by different
      contractor personnel appeared to be in the same handwriting.
      Further, at the two locations, we identified 123 instances in which the
      sign-in or sign-out times had been altered by either erasing the times
      recorded and writing in new times, or writing new times over the
      previously recorded times. These scenarios indicate a lack of controls
      over the sign-in/sign-out logs, and could indicate a manipulation of the
      hours claimed by the contractors.

      Also, at all four field divisions, we made visits to [DELETED], interviewed
      linguists, and reviewed the sign-in/sign-out logs for those linguists
      interviewed. At the [DELETED] of two field divisions (Houston and
      Miami), our review of the sign-in/sign-out logs showed that for 9 of the
      101 entries we reviewed, the linguists both signed in and signed out at
      the time they signed in. Furthermore, at one of the two [DELETED]
      (Houston), the DEA case agents overseeing the respective [DELETED]
      had already initialed the entries as approved before the workday was
      over. Allowing the contract linguists to sign in and sign out upon arrival
      is another weakness in the DEA’s controls over the sign-in/sign-out log.

Contractors Billed for Excessive Team Leader Personnel

       The contractors at three of the four locations (Dallas, Houston, and
Miami) billed and were paid $62,271 for more than one team leader per work
shift even though the contracts were designed to have only one team leader
per shift. According to the contracts, the core unit of personnel is made up of
a site supervisor and team leaders. The team leaders will generally be
assigned to different shifts and serve as the team leader during that shift.
During slow periods when no intercepts are active, the core unit personnel may
be assigned to work standard business hours and provide general linguistic
services.

      For the sample of invoices paid by the DEA under each of the four
contracts reviewed, we reviewed the sign-in/sign-out logs or time sheets
supporting those invoices to determine if the contractor assigned more than
one team leader per shift. In total, we sampled 83 of the 1,462 invoices paid
to the contractors at the four locations. The 83 invoices totaled $705,993.

                                        7

                            REDACTED VERSION
                            REDACTED VERSION

We found that the contractors at three of the four locations (Dallas, Houston,
and Miami) were improperly paid $62,271 when they assigned more than one
team leader per shift. The total amount of the 77 invoices sampled at the
three locations was $473,886. Since the contracts were designed to allow only
one team leader per shift, we consider these costs unallowable without the
contractor obtaining written approval from the DEA to assign more than one
team leader per shift.

Contractors Billed Overtime That Was Either Not Approved, Approved
After the Overtime Was Worked, or at Rates Higher Than Approved

      The contractors at two of the four locations (Dallas and Miami) billed and
were paid $30,957 in overtime that either the COTR could not provide
documentation showing the overtime had been pre-approved or was not
authorized by the contract. To determine whether overtime payments were
proper, we randomly selected a sample of invoices paid by the DEA under each
of the four contracts reviewed. We then determined if the sampled invoices
contained overtime payments. In total we sampled 348 of the 1,462 invoices
paid the contractors at the four locations. The 348 invoices totaled
$1,961,710. At one location (Miami), the contract states that overtime is
allowed if an individual performed work in excess of 40 hours a week and the
overtime is pre-approved by the COTR. For the 191 sample invoices (totaling
$723,412) paid by the DEA under this contract, we determined that $24,873 of
overtime was paid without documentation showing the overtime was pre-
approved. At the other location (Dallas), the Contracting Officer modified the
contract to establish overtime and holiday rates. For the 102 sample invoices
paid (totaling $507,486) by the DEA under this contract, we determined that
$5,385 of overtime was paid before the contract was modified to allow
overtime, and $699 of overtime was paid at higher rates than allowed by the
contract modification.

Contractors Billed for Excess Travel Expenditures

       The contractors at three of the four locations (Dallas, Houston, and San
Diego) billed and were paid $73,238 in travel expenses either not allowed by
the contracts or not supported by receipts. According to the contracts, all
travel costs are to be in accordance with the Federal Travel Regulations.
Travel costs are to be reimbursed for actual transportation and travel
allowances of personnel authorized to travel. Further, transportation costs are
not to be reimbursed in an amount greater than the cost of first class rail or
economy air travel, unless the first class rail or economy air travel is not
available and the contractor certifies to these facts on the travel voucher or
other document submitted for reimbursement.

     For a sample of invoices paid at the four locations, we examined the
supporting documentation for the invoices that involved costs reimbursed for

                                       8

                            REDACTED VERSION
                            REDACTED VERSION

linguists in travel status. In total, we reviewed 36 invoices containing travel
payments out of the 1,462 invoices paid to the contractors at the four
locations. The 36 invoices totaled $299,263. We found that the DEA paid the
contractor at one location (Dallas) $2,477 for: (1) higher lodging costs than
approved for the location visited, (2) lodging and per diem after the contract
employee returned from the location visited, and (3) first class air
transportation for contract linguists without the required justification. The
$2,477 in questioned costs was from the $35,934 in travel costs reviewed at
this location. In addition, the DEA paid the contractors at the other two
locations (Houston and San Diego) $70,761 in travel expenses not supported
by receipts. The $70,761 in questioned costs was from the $226,606 in travel
costs reviewed at these locations. As such, we questioned $2,477 in travel
expenses as unallowable and $70,761 as unsupported.

Contractors Submitted Invoices More Frequently Than Allowed by
the Contracts

      The contractors at two of the four locations (Dallas and Miami)
submitted invoices approximately twice a month instead of once a month as
required by the contract. As a result, the DEA had to process twice the
number of invoices each month. At one location (Miami), the COTR required
the contractor to submit invoices twice a month because the contractor had
submitted inaccurate invoices in the past. At the other location (Dallas), the
COTR paid the contractor twice a month because the contractor had serious
cash flow problems at the beginning of the contract, but the practice
continued for no apparent reason. The COTR at one of the locations (Miami)
instructed the contractor to begin submitting monthly invoices at the
conclusion of our audit.

DEA’s Use of Blanket Purchase Agreements Instead of the Linguistic
Contracts Resulting in Higher Costs for Linguistic Services

       The contractors at the four locations obtained linguistic services outside
the linguistic contracts. The contractors in two locations (Houston and San
Diego) were unable to provide the services requested by the DEA. Thus, BPAs
were used to meet the DEA linguistic service needs. In the other two locations
(Dallas and Miami), the DEA could have saved $58,542 had they used the
contractors to provide linguistic services.

      For the invoices paid by the DEA under BPAs for linguistic services while
the contracts were in effect, we determined if the services could have been
provided by the contractor. If the contractor could have provided the services,
we compared the cost using the BPAs to what the cost would have been under
the terms of the contracts.



                                        9

                            REDACTED VERSION
                                  REDACTED VERSION

       In one location (Dallas), the contractor claimed it could have provided
linguistic services the DEA obtained through BPAs. Instead of issuing a written
order to the contractor, and having the contractor either accept or deny the
request, the DEA used BPAs with three companies to obtain the linguistic
services. The DEA could have saved $33,019 had it prepared a written
                                                                      9
request to the contractor for the services and used the contractor .

      In the other location (Miami), the contractor breached the terms of the
contract by informing the DEA that it would no longer provide translation and
transcription services on a per-page or per-word basis as provided for in the
contract, or recruit linguists for the contract. Because the contractor
stopped providing many of the contract services, the DEA had to revert to
using more costly BPAs to obtain the needed linguistic services.

       We reviewed a limited sample of 16 BPA invoices totaling $110,819
and found that the DEA spent $25,523 more by using the BPAs than if it had
obtained the services through the contract. The DEA could have paid 23
percent less had it been able to obtain the linguistic services through the
contract. If this rate is representative of all $1,331,588 in BPA purchases for
linguistic services made after the contractor stopped providing many
contract services, then we estimate the use of the BPAs cost the DEA about
an additional $306,265 at this location (Miami). Instead of terminating the
contract, the DEA continued to exercise the contract options because it
wanted to maintain stability by at least keeping the contractor’s core
personnel intact. In addition, according to the Contracting Officer, she was




9
    In this case, the DEA paid $55,679 to obtain the linguistic services through the BPAs. Had
    the DEA obtained these services through the contract, the DEA would have paid $22,660,
    thus saving $33,019. The DEA, and not the contractor, was the cause for the BPA being
    used instead of the contract. Therefore, the $33,019 was not reported as a questioned
    cost in the Dallas audit.


                                              10

                                  REDACTED VERSION
                                   REDACTED VERSION

not prepared to solicit another contract, as well as incur the cost associated
                              10
with awarding a new contract .

The Contracting Officer’s Technical Representatives Did Not
Adequately Oversee the Contracts

      The Contracting Officer designated COTRs at the four locations by
designation memoranda. These designation memoranda described the
duties required of the COTRs that included reviewing the contractor’s
invoices to ensure the contractors claimed costs in accordance with the
contract. The designation memoranda, which the COTRs signed, also stated
that the COTRs may not redelegate the authority and responsibilities
delegated to them. However, based on our findings previously described,
we believe that the COTRs at all four locations could have done a better job
of overseeing the contracts.

       Our review of the overall operations, as well as sample invoices paid
by the DEA at all four locations, found that the COTRs were not always:
(1) completing contractor performance evaluations in a timely manner,
(2) reviewing and verifying costs claimed by the contractors as accurate and
properly supported, (3) ensuring that the contractors claimed costs as
approved in the delivery orders, and (4) ensuring that the contractors
completed the work within the periods specified in the delivery orders. In
addition, at one location (Dallas) the COTR informally assigned a case agent
from the field division to perform the duties designated to the COTR for the
linguist contract. Had the COTRs properly monitored the contractor’s
invoices and performance, we believe many of the problems we identified,
including higher linguistic costs and poor contractor performance, could have
been avoided.

       After the exit conference, a DEA official provided us preliminary written
comments to the finding and recommendation on compliance with essential
contract requirements. The DEA’s comments indicated that the COTRs have
received detailed training to carry out their responsibilities as COTRs, and
that it would draft additional guidance to the COTR’s to address each of the
issues disclosed in this finding. We acknowledge that the COTRs have
received training to carry out their COTR responsibilities. However, since the
training was not effective in ensuring that the COTRs verified that the costs

10
      In the individual audit report for the Miami contract, we addressed the issue relating to
     the contractor’s apparent breach of contract by recommending that the DEA: (1) remedy
     the $25,523 in unallowable costs paid for services through BPAs that should have been
     provided by the contractor, and (2) determine the remaining additional costs the DEA
     incurred by having to use BPAs to obtain linguistic services that should have been
     provided by the contractor and take appropriate actions against the contractor for causing
     the DEA to incur these additional costs.


                                               11

                                   REDACTED VERSION
                                  REDACTED VERSION

claimed by the contractors were allowable and properly supported, we
believe that the DEA needs to issue additional guidance to the COTRs and
conduct random checks of the invoices certified by the COTRs to make sure
the invoices contain only allowable and supported costs.
                          11
Recommendations :

We recommend that the DEA Administrator:

1. Issue guidance to the field division COTRs instructing them to ensure
   that:

      a. contractors are not paid for services not authorized by the delivery
         orders.

      b. contractors are not paid for services completed outside the
         performance period authorized by the delivery orders.

      c. contractors do not begin work before the work has been properly
         authorized by the Contracting Officer.

      d. contractors are not paid for hours not supported by time records.

      e. contractors obtain approval from the DEA before changing the core
         contractor personnel approved under the contract.

      f. contractors are not paid for hours not supported by the sign-in/sign-
         out logs.

      g. contractors properly complete the sign-in/sign-out logs.



11
     The following recommendations relate to the DEA's oversight of the contractors to ensure
     that the DEA pays the contractors for only those costs allowed by the contracts and
     supported by the contractors. In our four contract audits at Dallas, Houston, Miami, and
     San Diego, we identified $2,816,581 in questioned costs. The questioned costs resulted
     from the contractors submitting invoices for: (1) services not authorized by delivery
     orders; (2) services performed outside the performance period authorized by the delivery
     orders; (3) services begun before the delivery orders were issued; (4) services not
     supported by timesheets or sign-in/sign-out logs; (5) key personnel not approved by the
     DEA; (6) more team leaders than allowed by the contracts; (7) overtime that was either
     not approved, approved after the overtime was worked, or at rates higher than
     approved; and (8) travel expenditures that were not in accordance with the
     contracts. Because our individual contract audits already contain
     recommendations to address the deficiencies and questioned costs above, they are not
     repeated in this report.


                                              12

                                  REDACTED VERSION
                          REDACTED VERSION

  h. contractors obtain approval from the DEA before assigning more than
     one team leader per shift.

  i. contractors are not paid for overtime that is not properly approved or
     at rates higher than approved.

  j. contractors are not paid for travel expenses that are either not
     approved or are not supported by receipts.

  k. a written request is provided to contractors, and a written denial of the
     request is obtained from the contractors, before the services are
     obtained through more costly BPAs.

  l. performance evaluations of the contractors are completed by the
     COTRs in a timely manner.

2. Require the Contracting Officer to perform random checks to ensure that
   the invoices certified by the COTRs are accurate before payment is made.




                                     13

                          REDACTED VERSION
                                  REDACTED VERSION

          2. COMPLIANCE WITH INTERAGENCY REIMBURSABLE
             AGREEMENT REQUIREMENTS

          We audited the reimbursable agreements between the [DELETED] and
          the DEA for translation and transcription services and found that while
          the recipients of the services provided by the [DELETED] believed the
          services were beneficial to the DEA’s mission to dismantle and disrupt
          drug organizations, weaknesses existed in the: (1) cost controls in the
          FY 2000 and FY 2001 agreements, (2) [DELETED] claims for
          reimbursement, and (3) DEA’s monitoring of payments to the
                                                             12
          [DELETED]. As a result, we questioned $518,912 (13 percent) of the
          $4.1 million paid to the [DELETED].

Most Recipients Were Generally Satisfied With the Quality of Services
Provided by the [DELETED]

       The users of the [DELETED] MOU are primarily the DEA’s field
divisions. During our audits of the linguistic contracts in the Dallas,
Houston, Miami, and San Diego field divisions, we randomly selected a
sample of invoices paid under the contracts and determined the cases
associated with those invoices. We then identified the 119 DEA case agents
and 76 AUSAs that were responsible for managing and prosecuting the
cases. We either interviewed or sent surveys to the DEA case agents and
AUSAs to determine their views of the contractors’ performance, as well as
the performance of the [DELETED]. We received input from 104 of the 119
DEA case agents and 39 of the 76 AUSAs. Of the 104 DEA case agents that
provided input,
37 had used the services provided by the [DELETED]. Of the 39 AUSAs that
provided input, 12 had used the services provided by the [DELETED].

        The DEA case agents in one of the four field divisions were generally
pleased with the quality and timeliness of the translation and transcription
services provided by the [DELETED]. The DEA case agents in the other
three field divisions were generally pleased with the quality of the translation
and transcription services provided on the cases, but not the timeliness.
Two case agents said it took from 5 to 8 months before they received their
transcripts, while two other case agents said they sent work to the
[DELETED], but the services were never completed. One of those two case
agents never received his tape back from the [DELETED]. The AUSAs
serving two of the field divisions were generally pleased with the quality and
timeliness of linguistic services provided by the [DELETED] on the cases,
though some of the AUSAs thought that: (1) the [DELETED] took a little too
long to complete its work, or (2) the quality of the [DELETED] translations

12
     The questioned costs are based on a sample of invoices reviewed for each category and
     are not projected to the total universe of invoices paid.

                                              14

                                  REDACTED VERSION
                           REDACTED VERSION

were not up to par either because of carelessness or because of the
translators’ limited understanding of the slang used in the region. At one of
the remaining two field divisions, only one AUSA had experience with the
[DELETED] reimbursable agreements, and that AUSA was not satisfied with
the accuracy or timeliness of the services provided. At the remaining field
division, none of the AUSAs had used the [DELETED] for linguistic services.

The DEA Eliminated the Hourly Cost Control from the FY 2000 and
FY 2001 Reimbursable Agreements

       When negotiating the reimbursable agreements with the [DELETED] for
FY 2000 and FY 2001, the DEA removed the hourly cost control that existed in
the earlier agreements. In the FY 1997, FY 1998, and FY 1999 agreements,
the DEA had included hourly pay rates for the linguists allowed under the
agreements. However, in FY 2000, the DEA eliminated this cost control by
revising the agreement to include a lump sum amount ($1,270,000) for 57
linguists. Moreover, the FY 2001 agreement included a lump sum amount
($1,909,000) for 57 linguists, which amounted to a 50 percent increase in the
costs for the 57 linguists from FY 2000 to FY 2001.

      According to the Program Analyst who set up the agreements, the
FY 2000 and FY 2001 agreements were changed because the DEA
management told her there would be fewer problems for both the DEA and the
[DELETED] if the agreements contained fewer details about hourly rates. In
our judgment, the key cost control providing for hourly rates for linguists
should be added back to future agreements to maintain accountability of the
costs. After the exit conference, a DEA official provided us comments that the
DEA would reconsider its decision to remove the hourly cost control from the
reimbursable agreements.

The [DELETED] Billed for Costs in Excess of the FY 2000 Agreement
Limit

      The [DELETED] billed and was paid $1,611,842 for costs incurred in FY
2000. However, the FY 2000 reimbursable agreement limited the total costs to
$1.5 million. The agreement indicated that the limit could be exceeded if the
DEA modified the agreement to allow the additional costs. After the exit
conference, the DEA provided us documentation to show that on November 9,
2000, the DEA’s [DELETED] sent a written request to the Financial
Management Division to increase the FY 2000 reimbursable agreement to
$1,611,842. However, the DEA did not provide documentation to show the
agreement was actually modified. Since the DEA did not provide
documentation to show the FY 2000 agreement was modified, we question the
$111,842 paid to the [DELETED] above the limit as unsupported.



                                     15

                           REDACTED VERSION
                            REDACTED VERSION

The [DELETED] Billed for Personnel Not Allowed

       The [DELETED] billed and was paid $269,476 for personnel not allowed
in the reimbursable agreements.

       The FY 1997, FY 1998, and FY 1999 reimbursable agreements provided
for the [DELETED] to be reimbursed only for civilian linguist personnel costs.
The provision for the DEA to reimburse the [DELETED] for technical and
administrative support personnel was not allowed until the FY 2000
agreement. We obtained all 31 invoices paid in FY 1997, FY 1998, and
FY 1999. The 31 invoices totaled $1,113,645. We then examined the
supporting documentation for the 31 invoices and found 28 invoices where the
DEA paid for personnel other than linguists. In FY 1997, FY 1998, and
FY 1999, the [DELETED] billed and was paid $19,673, $101,067, and
$147,964, respectively, for salaries and fringe benefits of an administrative
person and three technical support personnel not reimbursable under the
agreements. As such, we question these costs as unallowable.

       After the exit conference, a DEA official provided us comments that for
one of the technical support positions reimbursed, the position was not
separately identified in the Statement of Work until FY 2000, but the work
always directly supported the DEA’s linguistics program. For the administrative
support position reimbursed, the DEA official stated that half of the salary and
benefits for the position were charged to the DEA in lieu of an “administrative
cost allocation” that was not formulated at the time. The DEA official stated
that subsequent to FY 1999: (1) the DEA added a full-time program
administrator position to the Statement of Work in FY 2000, and included an
“administrative costs allocation” as well; and (2) the [DELETED] discontinued
billing for the administrative services of the administrative support position.
We acknowledge that the actions taken to revise the
FY 2000 and subsequent agreements precluded this deficiency from
reoccurring. However, we believe the DEA needs to remedy the improper
costs paid from FY 1997 through FY 1999 before the agreements were
modified.

      In addition, we also found that on one invoice paid in FY 1999, the
[DELETED] billed and was paid $772 for a civilian linguist that was funded and
paid by the Department of Defense. We question the $772 as unallowable.

The [DELETED] Billed for More Hours Than Allowed for Part-time
Linguists

       The [DELETED] billed and was paid $63,083 for hours worked by part-
time linguists that exceeded the maximum hours or months allowed by the
reimbursable agreements. The FY 1997, FY 1998, and FY 1999 reimbursable
agreements allowed each part-time civilian employee to work a maximum of

                                      16

                            REDACTED VERSION
                                  REDACTED VERSION

19 hours per week. In FY 2000 and FY 2001, the agreements allowed each
part-time civilian employee to exceed 19 hours per week per year as long as
the part-time employee did not work more than 9 months during the year.
                                                                                            13
       We selected a sample of 36 of the 56 invoices paid as of July 30, 2001 .
The 36 invoices totaled $1,805,904. For the 36 sample invoices paid, we
examined the supporting payroll records and found 26 invoices where part-
time civilian employees exceeded the maximum hours or months allowed by
the reimbursable agreements. We then multiplied the excess hours by the
actual pay rate or the allowable pay rate, whichever was less. In FY 1998,
FY 1999, FY 2000, and FY 2001, the [DELETED] billed and was paid $12,742,
$38,136, $2,825, and $9,380, respectively, for the costs of salaries and fringe
benefits in excess of the 19 hours per week or 9 months per year for part-time
civilian personnel. As such, we question these costs as unallowable.

The [DELETED] Billed for Excess Travel Expenditures

       The [DELETED] billed and was paid $45,163 in travel expenses not
allowed by the reimbursable agreements. For the 36 sample invoices paid
(totaling $1,805,904), 17 involved costs reimbursed for civilian personnel in
travel status. We examined the supporting documentation for these 17
invoices and found that the DEA paid the [DELETED] for travel expenses
totaling:

         •   $5,983 for full-time civilian personnel that were not allowed in the
             FY 1998 reimbursable agreement. The FY 1998 agreement states
             that travel by full-time civilian personnel shall be funded by the
             [DELETED] and part-time civilian personnel shall not be required to
             travel. In addition, these travel expenses were either not approved
             by the DEA or not supported by receipts. These costs are
             unallowable.

         •   $29,009 for technical support personnel that were not allowed in the
             FY 1999 reimbursable agreement. The DEA did not authorize
             technical support personnel until the FY 2000 agreement. Therefore,
             these costs are unallowable.

         •   $7,237 for which the [DELETED] did not provide the required advance
             notification to the DEA. The FY 1999 agreement stated that the
             [DELETED] shall fax a copy of all travel authorizations to the DEA’s
             designated representative prior to commencement of travel. For
13
     We selected 100 percent (31) of the invoices paid in FY 1997 (2), FY 1998 (14), and
     FY 1999 (15) and 20 percent (5) of the remaining 25 invoices paid in FY 2000 (3) and
     FY 2001 (2). Since the DEA had eliminated the key cost control in the FY 2000 and
     FY 2001 agreements, we concentrated our review on the invoices paid in FY 1997
     through FY 1999.

                                              17

                                  REDACTED VERSION
                             REDACTED VERSION

          these expenses, there was no evidence that the [DELETED] provided
          the required advance notification to the DEA or that the DEA
          approved the travel. Therefore, we question these costs as
          unsupported.

      •   $2,934 ($742 in FY 2000 and $2,192 in FY 2001) for civilian
          personnel that were not approved in writing by the DEA as required
          by the FY 2000 and FY 2001 reimbursable agreements. The FY 2000
          and FY 2001 agreements require that all requests for out of state
          travel authorizations be signed by at least a DEA Assistant Special
          Agent in Charge. For these expenses, no such approval was
          obtained. Therefore, we questioned these costs as unsupported.

       After the exit conference, a DEA official provided us comments that it
was DEA’s opinion that the travel was justified, approved, and in support of
linguistic services for the DEA.

The [DELETED] Billed for Personnel Costs Not Supported by Payroll
Records

      The [DELETED] billed and was paid $7,405 for which the [DELETED] did
not have supporting payroll records. Of the 36 sample invoices paid (totaling
$1,805,904) by the DEA, the [DELETED] did not provide the payroll records to
the DEA to support 7 civilian personnel billed as part of one invoice. The
invoice was for the 2-week pay period ended July 23, 1999. The agreements
require the [DELETED] to maintain documents to support the bills. As such,
we question the $7,405 as unsupported.

The [DELETED] Billed Higher Hourly Rates Than Allowed

       The [DELETED] billed and was paid $7,295 for average hourly rates that
exceeded the average hourly rates allowed by the FY 1998 and FY 1999
reimbursable agreements. The FY 1998 reimbursable agreement allowed the
[DELETED] to charge the DEA an average hourly rate of $14.95 for part-time
civilian employees and $19.95 for full-time civilian employees. The FY 1999
reimbursable agreement allowed the [DELETED] to charge the DEA an average
hourly rate of $15 for part-time civilian employees and $20 for full-time civilian
employees. The FY 2000 and FY 2001 agreements did not provide hourly
rates.

      For the 29 sample invoices paid (totaling $1,093,062) in FY 1998 and
FY 1999, we examined the supporting payroll records and calculated the
average hourly rate for both full and part-time civilian linguists billed to the
DEA. We found eight invoices where the [DELETED] billed for part-time civilian
employees at average hourly rates that exceeded the average hourly rates
allowed by the FY 1998 and FY 1999 reimbursable agreements. In

                                       18

                             REDACTED VERSION
                            REDACTED VERSION

FY 1998 and FY 1999, the [DELETED] billed and was paid $264 and $7,031,
respectively, for the portion of the part-time civilian employees’ pay that
exceeded the hourly rates allowed in the agreements. These costs are
unallowable.

The [DELETED] Billed for Awards Not Allowed

       The [DELETED] billed and was paid $5,838 for awards not allowed by the
FY 1999 reimbursable agreement. The [DELETED] could not be reimbursed for
monetary awards made to civilian personnel until the FY 2000 and FY 2001
agreements. For the 31 sample invoices paid (totaling $1,113,645) in FY
1997, FY 1998, and FY 1999, we examined the supporting documentation and
found two invoices where the DEA paid $5,838 for awards given to [DELETED]
civilian personnel prior to FY 2000. These costs are unallowable. After the exit
conference, a DEA official provided us comments that prior to paying one of
the FY 1999 invoices (1999-252), the DEA deducted $2,465.59 for monetary
awards paid to four [DELETED] employees. We did not question the $2,465.59
for these employees since the DEA had deducted those costs from the
payment to the [DELETED]. The DEA official also stated that the DEA paid the
remaining awards billed on invoice 1999-252 plus additional awards billed on
invoice 1999-256. These awards billed on invoices 1999-252 and 1999-256
are the awards we questioned for FY 1999 totaling $5,838. The DEA official
stated that the payment of awards was clarified in the FY 2000 Statement of
Work. We acknowledge that the payment of awards was clarified in the FY
2000 Statement of Work. However, we believe that the DEA needs to remedy
the awards paid in FY 1999 before awards were allowed in the agreements.

The [DELETED] Billed for Unallowable Administrative Costs

      The [DELETED] billed and was paid $5,804 of administrative costs that
exceeded the amounts allowed by the FY 1998 and FY 2000 reimbursable
agreements. The FY 1997, FY 1998, and FY 1999 reimbursable agreements
did not provide for reimbursement of administrative costs. The FY 2000 and
FY 2001 reimbursable agreements allowed the reimbursement of
administrative costs at rates of 1.1 percent and 1.3 percent of the actual
expenses reimbursed, respectively.

      In FY 1998, the [DELETED] was paid $4,704 for administrative costs.
Since administrative costs were not allowed in the FY 1998 agreement, these
costs are unallowable.

      In FY 2000, the [DELETED] was paid $17,600 for administrative costs
based on $1.6 million of expenses reimbursed by the DEA. However, the
FY 2000 agreement limited the reimbursable costs to $1.5 million. As such,
the [DELETED] was limited to $16,500 of administrative costs ($1.5 million


                                      19

                            REDACTED VERSION
                            REDACTED VERSION

times 1.1 percent) for FY 2000. Therefore, we question the $1,100
overpayment as unallowable.

The [DELETED] Billed for Overtime Not Allowed

      The [DELETED] billed and was paid $3,006 in either overtime or the
accrual of overtime hours as compensatory time not allowed by the
reimbursable agreements. In the FY 1997, FY 1999, FY 2000, and FY 2001
reimbursable agreements, overtime was not permitted. In the FY 1999,
FY 2000, and FY 2001 agreements, full-time civilian personnel were to be
compensated for working overtime hours with an equal number of
compensatory hours off. In the FY 1998 agreement, full-time civilian
personnel were permitted to work overtime, but the overtime had to be pre-
approved by the DEA’s designated representative.

      For the 36 sample invoices paid (totaling $1,805,904), we examined the
supporting documentation and found 16 invoices that had unallowable
overtime or compensatory payments to civilian personnel as follows:

     •   In FY 1998, the DEA paid three invoices to the [DELETED] that
         included $554 for overtime incurred by linguists designated as part-
         time civilian personnel. We question these costs as unallowable
         because overtime was only permitted for full-time civilian personnel in
         the FY 1998 reimbursable agreement.

     •   In FY 1999, FY 2000, and FY 2001, the DEA paid seven invoices to the
         [DELETED] that included overtime of $798. Since overtime was not
         allowed in the FY 1999, FY 2000, and FY 2001 agreements, we
         question the $798 in overtime payments as unallowable.

     •   In FY 1999 and FY 2000, the DEA paid 12 invoices to the [DELETED]
         that included payments for compensatory time of $4,373 and $587,
         respectively. However, the [DELETED] claimed compensatory time
         for the number of extra hours worked plus the [DELETED] claimed an
         extra 50 percent for benefits as follows:




                                      20

                            REDACTED VERSION
                             REDACTED VERSION


                               Compensatory Time Claimed

                      Compensatory          Extra Benefits        Total
              FY      Time Claimed             Claimed           Claimed
            1999                $2,915                $1,458        $4,373
            2000                  $391                  $196        $ 587
            Total               $3,306                $1,654        $4,960
            Source: [DELETED] Invoices and Supporting Payroll Records

         Since the FY 1999 and FY 2000 agreements limit compensatory time
         claimed to equal the number of extra hours actually worked, we
         question the extra 50 percent claimed for benefits ($1,654) as
         unallowable.

       After the exit conference, a DEA official provided us a copy of the
Statement of Work for the FY 2002 agreement in which the DEA clarified its
policy for allowing overtime and compensatory time. We acknowledge that the
overtime and compensatory time policy has been clarified in the FY 2002
agreement. However, we believe that the DEA needs to remedy the improper
overtime and compensatory time payments that occurred prior to the
agreement being modified.

The DEA Did Not Effectively Monitor the Costs Billed by the [DELETED]

       The DEA did not adequately monitor the payments to the [DELETED].
According to the Program Analyst responsible for monitoring the [DELETED]
agreements, the review and approval of the [DELETED] invoices was limited
primarily to verifying that personnel listed on the invoices have DEA security
clearances. If an individual listed on an invoice does not have a DEA security
clearance, then the charges for that individual are backed out of the monthly
payment to the [DELETED]. The Program Analyst generally used no other
means to verify the accuracy and support of the invoices. Specifically, no
verification was made to ensure that the amounts billed by the [DELETED] for
hours worked, travel, overtime, awards, and personnel costs met the full terms
of the agreements. The Program Analyst stated that she was not given any
written guidance on how to validate invoices submitted by the [DELETED].
After the exit conference, a DEA official provided us a copy of the Statement of
Work for the FY 2002 agreement in which the DEA included clarifications for
overseeing the agreements and reviewing the [DELETED] invoices. While
these clarifications are helpful, the DEA needs to establish written internal
procedures for validating the invoices to avoid the types of questionable
payments we identified.




                                         21

                             REDACTED VERSION
                           REDACTED VERSION

Recommendations

We recommend that the DEA Administrator:

3. Reestablish hourly rates for linguists in future reimbursable agreements
   with the [DELETED].

4. Remedy the $111,842 paid to the [DELETED] that exceeded the $1.5
   million allowed under the terms of the FY 2000 agreement.

5. Remedy the $269,476 paid to the [DELETED] for: (1) technical and
   administrative support costs not allowed in the FY 1997, FY 1998, and
   FY 1999 agreements, and (2) a linguist funded and paid by the
   Department of Defense.

6. Remedy the $63,083 paid to the [DELETED] for hours or months worked
   by part-time linguists that exceeded the terms of the agreements.

7. Remedy the $45,163 paid to the [DELETED] for travel related expenses
   not authorized by the agreements.

8. Remedy the $7,405 paid to the [DELETED] for salaries and fringe
   benefits claimed by the [DELETED] personnel, but for which the
   [DELETED] did not provide payroll records to support the payments.

9. Remedy the $7,295 paid to the [DELETED] for average hourly rates paid
   to the [DELETED] personnel that exceeded the terms of the FY 1998 and
   FY 1999 agreements.

10. Remedy the $5,838 paid to the [DELETED] for monetary awards not
    allowed in the FY 1999 agreement.

11. Remedy the $5,804 paid to the [DELETED] for administrative costs that
    were not allowed or exceeded the terms of the FY 1998 and FY 2000
    agreements.

12. Remedy the $3,006 paid to the [DELETED] for overtime or compensatory
    time benefits not allowed by the agreements.

13. Establish written procedures for reviewing invoices and overseeing the
    [DELETED] agreements.




                                      22

                           REDACTED VERSION
                            REDACTED VERSION

                              OTHER MATTERS

      The purpose of this section is to bring to the DEA management’s
attention another matter that we noted during the audit. The matter is for
informational purposes only.

      The Government Performance Results Act (GPRA) of 1993 provides for
the establishment of strategic planning and performance measurements in the
Federal Government. It seeks to improve the effectiveness, efficiency, and
accountability of federal programs by establishing a system for agencies to set
goals for program performance and to measure results. The GPRA also
requires agencies to prepare an annual performance plan. The annual
performance plan establishes annual performance goals to help meet the
agencies’ long-term goals. The annual performance plan should also contain
performance indicators for use in measuring whether the annual performance
goals are met.

       As part of our audit, we reviewed the DEA’s FY 2001 Annual Performance
Plan to assess whether the DEA had included performance goals and
performance indicators for the linguistic services contracts. We found that no
such goals or performance indicators were included in the DEA’s annual
performance plan. In our judgment, this is consistent with the GPRA of 1993
because it does not require that goals and performance measures be
developed at the micro-level. The GPRA requires that performance goals and
performance indicators be included in the annual performance plan for each
program activity. The GPRA defines program activity as a specific activity or
project as listed in the program and financing schedules of the annual budget
of the United States Government. Contracts for linguistic services are not
listed in the DEA’s portion of the FY 2001 annual budget for the United States
Government. Therefore, contracts for linguistic services are not considered a
program activity and as such, the DEA was not required to develop
performance goals and performance indicators for these contracts.




                                      23

                            REDACTED VERSION
                           REDACTED VERSION

    STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS


       We have audited the DEA’s administration of contracts and agreements
for linguistic services. The audit period covered the period July 1, 1997,
through July 30, 2001, and included a review of selected activities and
transactions. The audit was conducted in accordance with generally accepted
Government Auditing Standards.

      In connection with the audit and as required by the standards, we
reviewed procedures, activities, and records to obtain reasonable assurance
about the DEA’s compliance with laws and regulations that, if not complied
with, we believe could have a material effect on program operations.
Compliance with laws and regulations is the responsibility of the DEA’s
management.

      Our audit included examining, on a test basis, evidence about laws and
regulations that related to the DEA’s contracts and agreements for linguistic
services. The specific laws and regulations for which we conducted tests are:

            •   Federal Acquisition Regulations
            •   Federal Travel Regulations
            •   Government Performance Results Act of 1993

      Except for instances of non-compliance identified in the Findings and
Recommendations section of this report, the DEA was in compliance with the
laws and regulations referred to above. With respect to those transactions
not tested, nothing came to our attention that caused us to believe that the
DEA was not in compliance with the referenced laws and regulations above.




                                      24

                           REDACTED VERSION
                              REDACTED VERSION

                                                                         Appendix I

                 OBJECTIVES, SCOPE AND METHODOLOGY

       Our objectives were to determine whether the: (1) Drug Enforcement
Administration (DEA) adequately monitored the performance and costs of the
linguistic services providers, (2) recipients of the linguistic services were
satisfied with the services received, and (3) DEA complied with the
Government Performance Results Act (GPRA) requirements as they relate to
the linguistic services contracts and agreements. We conducted our audit in
accordance with Government Auditing Standards and included such tests as
were considered necessary to accomplish our objectives. Our audit
concentrated on, but was not limited to, the period July 1, 1997, through
July 31, 2001.

      One phase of our audit involved the completion of individual audits of the
DEA’s linguistic services contracts at Dallas, Houston, Miami, and San Diego.
At each of these locations we focused on performing tests and interviewing
personnel from the DEA, the United States Attorneys Offices, and the
contractors to determine if the:

      •   recipients of the linguistic services were satisfied with the quality of
          the services provided by the contractors.

      •   contractors billed and were paid for individual services and amounts
          ordered by the contract delivery orders. To perform this test, we
          randomly selected and obtained a sample of the delivery orders
          issued for each contract. We then obtained all the invoices that were
          paid against the sample delivery orders. In total, we sampled 284 of
          the 1,462 invoices paid to the contractors at the four locations. The
          284 invoices totaled $2,003,725. We then compared the services and
          amounts paid on the invoices to the services and amounts ordered by
          the delivery orders.

      •   contractors billed and were paid for individual services that were
          completed within the performance period specified in the delivery
          orders and started after the delivery orders were issued by the
          Contracting Officer. To perform this test, we randomly selected and
          obtained a sample of the delivery orders issued for each contract. We
          then obtained all the invoices that were paid against the sample
          delivery orders. In total, we sampled 409 of the 1,462 invoices paid
          to the contractors at the four locations. The 409 invoices totaled
          $2,846,406. We then compared the: (1) performance periods
          contained in the delivery orders to the actual performance periods
          billed by the contractors for the services ordered, and
          (2) performance periods contained in the invoices to the dates the

                                         25

                              REDACTED VERSION
                       REDACTED VERSION

    Contracting Officer issued the delivery orders authorizing the services.

•   contractors maintained timesheets, as required by the contracts, to
    support the personnel and hours billed. To perform this test, we
    determined if timesheets were provided to the DEA for invoices paid
    under the contracts. In total, we sampled 427 of the 1,462 invoices
    paid to the contractors at the four locations. The 427 invoices totaled
    $2,638,261.

•   contractors billed and were paid when contract employees were not
    performing any work under the contracts. To perform this test, we
    interviewed the DEA personnel who observed the contractors’
    personnel.

•   contractors obtained written approval from the DEA to change key
    personnel before billing for such personnel, as required by the
    contracts. To perform this step, we reviewed the sample invoices to
    identify instances where the contractors changed the key personnel
    on the contracts and then we interviewed the Contracting Officer’s
    Technical Representatives (COTRs) to determine if the contractors
    obtained written approval from the DEA to make the changes. In
    total, we sampled 84 of the 513 invoices paid to the contractors at
    three of the four locations. We did not review this issue for the Miami
    contract because the contract did not contain this requirement. The
    84 invoices totaled $699,948.

•   contractors billed and were paid for hours for which the DEA’s sign-
    in/sign-out logs showed the contractors’ employees worked. To
    perform this step, we selected a sample of invoices for each contract
    and compared the hours billed on the invoices to the hours on the
    sign-in/sign-out logs. In total, we sampled 268 of the 1,440 invoices
    paid to the contractors at three of the four locations. We did not
    review this issue for the San Diego contract because at the start of
    our audit, the San Diego office did not maintain sign-in/sign-out logs.
    The 268 invoices totaled $1,127,421.

•   contractors billed and were paid for only one site supervisor and one
    team leader per shift as provided for in the contracts. To perform this
    step, we reviewed the sign-in/sign-out logs supporting a sample of
    invoices for each contract to determine if the contractors assigned
    more than one site supervisor and team leader per shift. In total, we
    sampled 83 of the 1,462 invoices paid to the contractors at the four
    locations. The 83 invoices totaled $705,993.

•   contractors billed and were paid for overtime that was authorized by
    the contracts and properly approved by the COTRs. To perform this

                                  26

                       REDACTED VERSION
                           REDACTED VERSION

         step, we reviewed a sample of invoices from each contract to
         determine if any overtime was billed and paid without being
         authorized in the contracts or without proper approval from the
         COTRs. In total, we sampled 348 of the 1,462 invoices paid to the
         contractors at the four locations. The 348 invoices totaled
         $1,961,710.

     •   contractors submitted invoices for travel costs authorized by the
         contracts and properly approved by a DEA representative. To
         perform this step, we reviewed a sample of invoices to determine if
         the travel costs claimed were in accordance with the Federal Travel
         Regulations as required by the contract and were approved by a DEA
         representative as required. In total, we reviewed a sample of 36
         invoices containing travel payments out of the 1,462 invoices paid to
         the contractors at the four locations. The 36 invoices totaled
         $299,263.

     •   contractors submitted invoices based on the frequency required by
         the contracts. To perform this step, we interviewed the COTRs and
         reviewed a sample of invoices paid under each contract.

     •   DEA adequately monitored the performance of the contractors. To
         perform this step, we obtained the Contracting Officer’s memoranda
         that designated the COTRs for each contract to identify the
         responsibilities of the COTRs for monitoring the contractors’
         performances. We then reviewed a sample of invoices for each
         contract to determine if the COTRs reviewed and approved the
         invoices for payment as required. We also obtained the performance
         reports prepared by the COTRs to determine if they were completed
         as required.

      The second phase of our audit involved the review of the FY 1997,
FY 1998, FY 1999, FY 2000, and FY 2001 interagency reimbursable
agreements between the DEA and the [DELETED]. In this phase, we
performed tests and interviewed personnel from the DEA and the [DELETED]
to determine if the:

     •   [DELETED] billed and was paid for the total costs authorized by the
         reimbursable agreements. To perform this step, we reviewed all
         56 invoices paid under the agreements to determine if the
         [DELETED] reimbursements exceeded the total amounts authorized
         under the agreements for each fiscal year. The 56 invoices totaled
         $4,134,844.

     •   [DELETED] billed and was paid for personnel that were authorized by
         the reimbursable agreements. To perform this step, we reviewed a

                                      27

                           REDACTED VERSION
                      REDACTED VERSION

    sample of 36 of the 56 invoices paid under the reimbursable
    agreements to determine if any civilian personnel were paid without
    being authorized in the agreements. The 36 invoices totaled
    $1,805,904.

•   [DELETED] billed and was paid for hours worked by part-time civilian
    personnel that were authorized by the reimbursable agreements. To
    perform this step, we reviewed the 36 sample invoices to determine if
    any part-time civilian personnel exceeded the maximum hours and
    months authorized in the agreements. The 36 invoices totaled
    $1,805,904.

•   [DELETED] billed and was paid for travel expenditures authorized
    by the reimbursable agreements. To perform this step, we
    reviewed the 36 sample invoices and determined that 17 involved
    costs reimbursed for civilian personnel in travel status. We then
    reviewed the supporting documentation for the 17 invoices to
    determine if the travel costs claimed and paid were authorized by
    the agreements. The 36 invoices totaled $1,805,904.

•   [DELETED] maintained supporting documents, as required by the
    reimbursable agreements, to support the personnel and hours
    billed. To perform this step, we determined if payroll records were
    maintained by the [DELETED] to support the personnel and hours
    billed on the 36 sample invoices. The 36 invoices totaled
    $1,805,904.

•   [DELETED] billed and was paid at the hourly rates authorized by the
    reimbursable agreements. To perform this step, we reviewed all
    31 invoices paid in FY 1997, FY 1998, and FY 1999 to determine if the
    [DELETED] billed the hourly rates approved in the agreements. The
    31 invoices totaled $1,113,645.

•   [DELETED] billed and was paid for awards that were authorized by
    the reimbursable agreements. To perform this step, we reviewed all
    31 invoices paid in FY 1997, FY 1998, and FY 1999 to determine if
    awards were billed and paid without being authorized in the
    agreements. The 31 invoices totaled $1,113,645.

•   [DELETED] billed and was paid for administrative costs authorized
    by the reimbursable agreements. To perform this step, we
    reviewed all 56 invoices paid under the agreements to determine if
    the [DELETED] billed and was paid for administrative costs that
    exceeded the amounts authorized under the agreements. The 56
    invoices totaled $4,134,844.


                                28

                      REDACTED VERSION
                            REDACTED VERSION


      •   [DELETED] billed and was paid for overtime that was authorized by
          the reimbursable agreements. To perform this step, we reviewed the
          36 sample invoices and to determine if any overtime was billed and
          paid without being authorized in the agreements or without proper
          approval from the DEA’s designated representative. The 36 invoices
          totaled $1,805,904.

      •   DEA adequately monitored the agreements with the [DELETED]. To
          perform this test, we interviewed the DEA’s Program Analyst that
          monitored the [DELETED] invoices to determine the process she
          used to verify the accuracy and support for the invoices.

       The last phase of our audit involved the review of the actions taken by
the DEA to comply with the GPRA requirements as they relate to the linguistic
services contracts and agreements. In this phase, we reviewed the GPRA to
determine if the DEA was required to develop performance indicators for the
linguistic contracts and if so, whether the DEA actually developed the
performance indicators and included them in the annual performance plan.




                                      29

                            REDACTED VERSION
                                   REDACTED VERSION

                                                                                    Appendix II

                       SCHEDULE OF DOLLAR-RELATED FINDINGS

QUESTIONED COSTS:                                                                 14            PAGE
                                                                         AMOUNT

Unallowable Costs

Amount Paid for Personnel Not Authorized by the Agreements                    $269,476           16

Amount Paid for Excess Hours                                                   $63,083           16

Amount Paid for Travel Expenses Not Authorized by the Agreements               $45,163           17

Amount Paid at Higher Hourly Rates than Allowed                                 $7,295           18

Amount Paid for Awards Not Authorized by the Agreements                         $5,838           19

Amount Paid for Excess Administrative Costs Not Authorized by the
Agreements                                                                      $5,804           19

Amount Paid for Overtime Not Authorized by the Agreements                       $3,006           20

 Total Unallowable Costs                                                     $399,665

Unsupported Costs

Amount Paid for Expenses Exceeding the Authorized Agreement
Limits                                                                        $111,842           15

Amount Paid for Services for which the [DELETED] Couldn’t Provide
Payroll Records                                                                 $7,405           18

 Total Unsupported Costs                                                     $119,247

TOTAL QUESTIONED COSTS                                                       $518,912

__________________
Questioned Costs are expenditures that do not comply with legal, regulatory or contractual
requirements, or are not supported by adequate documentation at the time of the audit, or are
unnecessary or unreasonable. Questioned costs may be remedied by offset, waiver, recovery of
funds, or the provision of supporting documentation.




14
      The questioned costs reported here were based on a sample of invoices reviewed for each
     category and are not projected to the total universe of invoices paid.

                                                  30

                                   REDACTED VERSION
          REDACTED VERSION

                                        Appendix III

THE DRUG ENFORCEMENT ADMINISTRATION’S
  RESPONSE TO THE DRAFT AUDIT REPORT




                 31

          REDACTED VERSION
REDACTED VERSION




       32

REDACTED VERSION
REDACTED VERSION




       33

REDACTED VERSION
REDACTED VERSION




       34

REDACTED VERSION
REDACTED VERSION




       35

REDACTED VERSION
REDACTED VERSION




       36

REDACTED VERSION
REDACTED VERSION




       37

REDACTED VERSION
REDACTED VERSION




       38

REDACTED VERSION
REDACTED VERSION




       39

REDACTED VERSION
                         REDACTED VERSION

OIG Note: Additional attachments to the consolidated response were too
voluminous to incorporate into this report. The attachments may be
obtained by contacting the Drug Enforcement Administration.




                                   40

                         REDACTED VERSION
                          REDACTED VERSION

                                                               Appendix IV

      OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION,
        ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
                     TO CLOSE THE REPORT

Recommendation No.

  1. Resolved. This recommendation can be closed when we receive a
     copy of the: (1) Office of Acquisition Management’s (FA) final
     guidance issued to all Contracting Officer Technical Representatives
     (COTRs); (2) FA’s comprehensive review of the COTR program within
     the DEA, as well as the DEA’s revisions to the program as a result of
     the review; and (3) FA’s training agenda or other documentation for
     the May 2002 COTR training that shows that training was provided on
     the issues raised during our audit.

  2. Resolved. This recommendation can be closed when we receive a
     copy of the FA’s: (1) written procedures for the Contracting
     Officer’s/Contract Specialist’s review of contractor invoices, and
     (2) checklist for reviewing the contractor invoices that shows the
     issues raised during our audit will be part of the review.

  3. Resolved. In its response to the draft audit report, the DEA stated
     that it would include: (1) an estimated maximum hourly rate of
     [DELETED] in a modification to the FY 2002 reimbursable agreement,
     and (2) an estimated maximum hourly rate in all future agreements
     with the [DELETED].

    We believe that the DEA’s response is a positive step towards
    strengthening the reimbursable agreements with the [DELETED].
    However, we do not believe that a single maximum hourly rate can be
    appropriately applied to all personnel categories allowed by the
    agreement because different types of personnel are not generally
    compensated the same. For example, part-time linguists are generally
    paid less than full-time linguists and a program administrator is
    generally paid more than linguists. Therefore, we believe that the DEA
    should establish maximum hourly rates for each type of personnel
    allowed in the agreements. This recommendation can be closed when
    we receive a copy of the modified FY 2002 reimbursable agreement
    and the FY 2003 agreement showing the DEA included maximum
    hourly rates for each personnel category in the reimbursable
    agreements.

  4. Resolved. This recommendation can be closed when we receive a
     copy of the modification to the FY 2000 agreement that retroactively

                                    41

                          REDACTED VERSION
                         REDACTED VERSION

   increases the total amount allowed from $1,500,000 to $1,611,842.33.

5. Unresolved. In its response, the DEA stated that there was no
   documentation to support our contention that a linguist was billed to
   both the Department of Defense (DOD) and to the DEA. The DEA
   stated that the cost ($771.99) for the linguist in question was billed to
   the DOD only.

   We disagree with the DEA’s contention that the linguist in question
   was billed to the DOD only. The documentation provided to us during
   the audit clearly showed that the linguist was paid by the DEA as well.
   Included in the documentation for FY 1999 voucher number 253, the
   [DELETED] provided a list of linguistic personnel and their associated
   earnings submitted and paid by the DOD. The list showed that the
   linguist earned $275.08 for the pay period ended December 25, 1998,
   and $496.91 for the pay period ended January 8, 1999, for a total of
   $771.99. As such, the DEA did not pay the [DELETED] for these
   earnings on FY 1999 voucher number 253. However, on FY 1999
   voucher 254, the DEA retroactively paid the $771.99 in earnings for
   the linguist. Since the DEA acknowledged in its response that the
   linguist’s earnings were paid by the DOD and did not provide any
   documentation to show the payment on FY 1999 voucher number 254
   was subsequently recouped from the [DELETED], then we must
   conclude that the linguist’s earnings of $771.99 were paid by both the
   DOD and the DEA and must be remedied. As such, this portion
   ($771.99) of the recommendation remains unresolved. This portion of
   the recommendation can be resolved and closed when we receive
   documentation showing that the DEA has: (1) recouped the $771.99
   for the linguist funded and paid by the DOD or (2) provided additional
   documentation to conclusively show that the linguist’s earnings were
   not paid by both the DOD and the DEA.

   In its response to the draft audit report, the DEA also stated that
   although the technical and administrative support positions that we
   questioned were not included in the statement of work until October 1,
   1999, the technical and administrative support work and costs billed
   by the [DELETED] were always in support of the DEA’s linguistic
   services in furtherance of Title III criminal investigations. The DEA
   further stated that the reimbursable agreement included both direct
   and indirect costs and that the technical and administrative support
   costs were indirect costs. Therefore, the DEA contends it was
   appropriate to pay these costs.

   Since the DEA stated that the technical and administrative support
   positions billed by the [DELETED] were always in support of the DEA’s
   linguistic services and since we do not dispute this statement, then we

                                   42

                         REDACTED VERSION
                       REDACTED VERSION

  consider this portion ($268,704) of the recommendation resolved.
  This portion of the recommendation can be closed when we receive
  documentation showing that the DEA either: (1) modified the
  FY 1997, 1998, and 1999 reimbursable agreements to authorize
  payment for the technical and administrative support positions billed
  by the [DELETED], or (2) waived the $268,704 paid for these
  positions.

6. Unresolved. In its response to the draft audit report, the DEA stated
   that the State of [DELETED] laws provide that part-time employees
   may not exceed 1,560 hours in a 12-month period and do not require
   that the weeks or months be worked consecutively. The DEA further
   stated that based upon their review, there is no indication that any
   part-time employees billed by the [DELETED] exceeded the 1,560 hour
   limit. The DEA did state that the language in the FY 2002 statement of
   work would be simplified to read: “The total number of hours worked
   by each part-time employee shall not exceed 1,560 hours in a twelve-
   month period.”

  We do not dispute that the State of [DELETED] laws allow part-time
  employees to work up to 1,560 hours per year and do not require that
  the weeks or months be worked consecutively. However, the State of
  [DELETED] laws do not control how many hours that part-time
  employees can work and be paid for under each reimbursable
  agreement’s incorporated statement of work. While the [DELETED]
  must employ and pay part-time workers in accordance with the laws of
  the State of [DELETED], the amount that the [DELETED] can bill the
  DEA for those costs are governed by each reimbursable agreement’s
  incorporated statement of work. In FY 1998 and FY 1999, the
  statements of work provided that part-time employees shall not
  exceed 19 hours per week. We found that in FY 1998, the [DELETED]
  billed and was reimbursed $12,742.15 for hours by part-time
  employees that exceeded the 19 hours per week limit. In FY 1999, the
  [DELETED] billed and was reimbursed $38,136.44 for hours by part-
  time employees that exceeded the 19 hours per week limit. Beginning
  in FY 2000, the DEA changed the statement of work to allow part-time
  employees to work up to 19 hours per week or not more than a total
  of 9 months per year if they worked more than 19 hours per week.
  We interpreted the added requirement to limit the part-time
  employees to working no more than 9 months out of the year when
  they worked more than 19 hours per week. Based on this
  interpretation, the [DELETED] billed and was reimbursed $2,824.58 in
  FY 2000 and $9,380.15 in FY 2001 for excess costs when part-time
  employees worked more than 9 months during the year. Since the
  added requirement is ambiguously worded, and the DEA has agreed to
  simplify the wording in FY 2002 agreement, we consider the

                                 43

                       REDACTED VERSION
                       REDACTED VERSION

  $12,204.73 questioned for FYs 2000 and 2001 to be remedied.
  However, the $50,878.59 that we questioned for FYs 1998 and 1999
  still needs to be remedied.

  This recommendation can be closed when we receive documentation
  showing that the DEA either: (1) modified the FY 1998 and 1999
  reimbursable agreements to authorize payment for the excess hours
  worked by part-time employees, (2) waived the $50,878.59 paid for
  the excess hours worked, or (3) recouped the $50,878.59 in
  questioned costs.

7. Resolved. In its response to the draft audit report, the DEA stated
   that the intent of the FY 1998 reimbursable agreement was for the
   [DELETED] to obtain tickets, provide travel advances, process travel
   vouchers, and subsequently bill the DEA for the actual amount of
   travel expenses paid. The DEA also stated that the FY 1999 and
   subsequent agreements clarified the travel costs that DEA would pay.

  We agree that the DEA took positive steps and clarified the travel
  payments allowed in the FY 1999 and subsequent agreements. Since
  the DEA stated that its intent was to also pay for travel costs in the
  FY 1998 agreement, we consider this portion ($5,983) of the
  recommendation resolved. This portion of the recommendation can be
  closed when we receive a copy of the modification to the FY 1998
  agreement that retroactively authorized the travel costs paid under the
  agreement.

  In its response to the draft audit report, the DEA also stated that the
  FY 1999 travel for technical support personnel was in direct support of
  Title III monitoring, transcribing, and translating issues and in
  furtherance of the DEA’s Title III criminal investigations. Therefore,
  the DEA believed that the costs ($29,009) for travel by the technical
  support personnel were appropriate.

  As stated in our response to the DEA’s response for recommendation
  5, we do not dispute that the FY 1999 travel by the technical support
  personnel was in direct support of Title III monitoring, transcribing,
  and translating issues and in furtherance of the DEA’s Title III criminal
  investigations. As such, this portion ($29,009) of the recommendation
  can be closed when we receive the documentation requested under
  recommendation 5 as it relates to the technical and administrative
  support positions billed by the [DELETED]. In its response to the draft
  audit report, the DEA explained that the $7,237 that we questioned for
  travel by two civilian Spanish linguists in FY 1999 was for travel that
  was arranged and telephonically approved by a DEA [DELETED] Unit.


                                  44

                       REDACTED VERSION
                     REDACTED VERSION

We do not dispute that the travel for the two Spanish linguists may
have been arranged and telephonically approved by the DEA.
However, neither the DEA nor the [DELETED] provided documentation
during the audit, such as a record of telephone conversation or other
evidence, to support such approval. This portion ($7,237) of the
recommendation can be closed when we receive either:
(1) documentation such as a record of telephone conversation or other
evidence showing the DEA telephonically approved this travel, or (2) a
signed statement from the DEA official that approved the travel stating
that he/she did so but did not maintain records of the telephone
conversation.

In its response to the draft audit report, the DEA provided the
following comments concerning the $2,934 in travel costs that we
questioned for FYs 2000 and 2001. Specifically, the DEA stated that:

   •   the travel ($601) for a [DELETED] person on January 26, 2000
       occurred prior to the effective date (March 13, 2000) of the
       requirement for travel to be approved in writing by the DEA.

   •   the travel ($141) by an Arabic linguist to the DEA’s Orlando,
       Florida Resident Office on August 5, 2000 was performed on one
       day’s notice and was telephonically authorized by a DEA
       [DELETED] Unit Chief.

   •   the travel ($2,192) by a Vietnamese linguist to the DEA’s
       Houston Division Office on April 9, 2001 was approved in writing
       by a DEA [DELETED] Assistant Special Agent in Charge.

For the [DELETED] linguist travel, the travel occurred on January 26,
2000. According to the FY 2000 reimbursable agreement, the effective
date of the agreement, which included the requirement for travel to be
approved in writing by the DEA, was October 1, 1999. However, the
agreement was not approved by the DEA and the [DELETED] until
March 2000. Since the DEA did not ensure timely approval of the
agreement, it cannot hold the [DELETED] liable for the travel not being
approved in writing before the agreement was approved. Therefore,
we consider this portion ($601) of the recommendation closed. For
the Arabic linguist travel, the DEA provided no documentation, such as
a record of telephone conversation or other evidence, to show the
travel was telephonically approved. This portion ($141) of the
recommendation can be closed when we receive either:
(1) documentation such as a record of telephone conversation or other
evidence showing the DEA telephonically approved this travel, or (2) a
signed statement from the DEA official that approved the travel stating
that he/she did so but did not maintain records of the telephone

                               45

                     REDACTED VERSION
                        REDACTED VERSION

   conversation. For the Vietnamese linguist travel, documentation was
   not provided during the audit to show the travel was approved in
   writing by the DEA. However, the approval document provided with
   the DEA’s response to the draft report is adequate to close this portion
   ($2,192) of the recommendation.

8. Closed.

9. Resolved. In its response to the draft audit report, the DEA stated
   that as noted in its response to Recommendation 3, the terms of the
   FY 1998 and FY 1999 statements of work were based on average
   hourly rates and total estimated costs.

   We agree that the terms of the FY 1998 and 1999 statements of work
   were based on average hourly rates and the [DELETED] billed at rates
   that exceeded those average hourly rates. We can close this
   recommendation when we receive documentation showing that the
   DEA either: (1) modified the FY 1998 and 1999 statements of
   work to allow the higher average hourly rates billed by the [DELETED]
   or (2) recouped the $7,295 in questioned costs.

10. Resolved. In its response to the draft audit report, the DEA stated
    that after discussion with the [DELETED], it agreed that certain
    employee’s performance deserved recognition and that the DEA
    agreed to reimburse the monetary awards paid to 14 civilian linguists
    that were billed on public voucher number 99-252. The DEA further
    stated that it disallowed the awards for four State administrative
    employees and allowed three additional awards on public voucher
    number 99-256. The DEA stated that the average amount of the
    awards paid was $327 and that 8 of the 17 awards were for $225
    each. The DEA stated that the small number of awards given and the
    nominal amounts clearly indicate that the [DELETED] was not taking
    advantage of the reimbursable agreement. The DEA further stated
    that although the
    FY 1999 statement of work did not contain a provision allowing
    monetary awards, that it did include benefits as part of estimated
    costs and that awards are considered benefits. The DEA stated that
    this ambiguity was clarified in the FY 2000 statement of work by
    incorporating specific language for paying monetary and non-monetary
    incentive awards.

   We do not dispute that the [DELETED] employees were deserving of
   the awards and we do not contend that the [DELETED] was trying to
   take advantage of the reimbursable agreement by claiming the
   awards. We also agree that the DEA took positive steps to clarify the
   ambiguity when it developed the FY 2000 agreement. We can close

                                   46

                        REDACTED VERSION
                        REDACTED VERSION

    this recommendation when we receive documentation showing that
    the DEA modified the FY 1999 agreement to allow the payment of
    awards.
11. Resolved. In its response to the draft audit report, the DEA stated
    that the $17,600 paid to the [DELETED] for the administrative costs
    allocation for FY 2000 is an accurate amount based on the established
    rate of 1.1 percent and the actual reimbursed amount of
    $1,611,842.33.

   Had the FY 2000 agreement been properly modified to increase the
   allowable costs, then the $17,600 paid for administrative costs would
   have been correct. The DEA stated in its response to Recommendation
   4, that they have not been able to locate the signed modification to
   the FY 2000 agreement. Without a signed modification, the FY 2000
   agreement was limited to $1,500,000 in actual costs. The FY 2000
   agreement allowed an administrative allocation of 1.1 percent of the
   actual costs. Therefore, the administrative allocation was limited to
   $16,500 ($1,500,000 times 1.1 percent). The DEA stated in response
   to Recommendation 4 that it would retroactively modify the FY 2000
   agreement to increase the allowable costs. We can close this portion
   ($1,100) of the recommendation when we receive documentation
   showing the FY 2000 agreement was properly modified.

   In its response to the draft response, the DEA also stated that FY 1998
   was the first full year the reimbursable agreement with the [DELETED]
   was in place and that prior to entering into the agreement the
   percentage of the [DELETED] overall administrative cost allocation
   could not be projected. Therefore, the DEA agreed to offset the State
   of [DELETED] administrative costs to support the agreement by
   funding one-half of the salary of a State administrative assistant who
   was spending half her time on personnel, accounting, and procurement
   functions to support the new civilian linguist reimbursement program.
   The DEA further stated that when the [DELETED] had sufficient history
   to develop the administrative cost allocation, it found that paying half
   the salary of the administrative assistant fell short by $4,704 of the
   administrative cost applicable to the agreement.

   We believe that the DEA’s explanation for why it paid the $4,704 in
   administrative costs for FY 1998 is reasonable. Therefore, we can
   close this portion ($4,704) of the recommendation when we receive
   documentation showing the DEA modified the FY 1998 agreement to
   allow the payment of administrative costs.

12. Unresolved. In its response to the draft audit report, the DEA stated
    that all [DELETED] civilian employees assigned to the reimbursable
    agreement are covered by the Fair Labor Standards Act and applicable

                                  47

                        REDACTED VERSION
                     REDACTED VERSION

State of [DELETED] employment laws, rules, and regulations regarding
overtime. The DEA stated that the employees must be compensated
for hours worked in excess of 40 hours per week. The DEA also stated
that the State of [DELETED] employment laws prevail and all overtime
and compensatory time billed by the [DELETED] was in compliance
with the State of [DELETED] laws. The DEA further stated that of the
total 17 instances in question where overtime was paid to civilian
personnel during FYs 1998, 1999, 2000, and 2001, the overtime was
worked by 14 different employees, totaled less than 55 hours, and no
one individual worked more than 16 hours in overtime. The DEA
stated that this clearly indicates that overtime hours were worked only
on those occasions necessary to meet the DEA requirements.

We do not dispute that the overtime hours worked by the [DELETED]
personnel were in support of the DEA’s requirements. We also do not
dispute the DEA’s contention that all the overtime and compensatory
time billed by the [DELETED] was in compliance with the State of
[DELETED] employment laws. However, we do dispute the DEA’s
contention that the State of [DELETED] laws govern how the DEA will
reimburse the [DELETED] for overtime and compensatory time worked
by [DELETED] employees. While the [DELETED] is required to pay its
employees for overtime and compensatory time in accordance with the
State of [DELETED] laws, the DEA and the [DELETED] can include
provisions in the reimbursable agreement that limits how much of the
overtime and compensatory time will be reimbursed by the DEA. The
DEA and the [DELETED] provided such limits in each of the
reimbursable agreements. Specifically, in the FY 1998 agreement, the
DEA agreed to reimburse the [DELETED] for overtime of full-time
civilian personnel only. However, the DEA paid three invoices to the
[DELETED] that included $554 for overtime incurred by part-time
linguists. In the FY 1999, FY 2000, and FY 2001 agreements, overtime
reimbursements were not allowed. Instead, these agreements allowed
that full-time civilian personnel were to be compensated for working
overtime hours with an equal number of compensatory hours off.
However, we found that in FYs 1999, 2000, and 2001, the DEA paid
seven invoices to the [DELETED] that included $798 for overtime. We
also found that in FYs 1999 and 2000, that the DEA paid 12 invoices to
the [DELETED] that included compensatory time at one and a half
times the number of overtime hours worked instead of an amount
equal to the number of overtime hours worked as required by the
agreements. The extra time claimed and paid on these 12 invoices
totaled $1,654. Since the agreements limited the reimbursable
amounts for overtime and compensatory time and these limits were
exceeded, the $3,006 paid to the [DELETED] for unallowable overtime
and compensatory time should be remedied.


                               48

                     REDACTED VERSION
                         REDACTED VERSION

   This recommendation can be closed when we receive documentation
   showing that the DEA either: (1) modified each statement of work for
   the FY 1998, 1999, 2000, and 2001 reimbursable agreements to
   authorize payment for the questioned overtime and compensatory
   time, (2) waived the $3,006 in questioned overtime and compensatory
   time, or (3) recouped the $3,006 in questioned costs.

13. Resolved. In its response to the draft audit report, the DEA stated
    that in FY 2001 the [DELETED] instituted a policy for [DELETED]
    management staff to review the public vouchers and documentation
    that are prepared by the [DELETED] accounting staff prior to
    forwarding the public vouchers to the DEA for payment. The DEA
    stated that language was incorporated into the FY 2002 statement of
    work to formally require the [DELETED] management to review and
    sign each invoice for accuracy and completeness prior to forwarding
    the invoice to the DEA for payment. The DEA also stated that it had
    drafted a checklist for reviewing the [DELETED] public vouchers that
    includes the verification that:

      •   employees’ names belong to the DEA reimbursable agreement.

      •   any “out of cycle payroll processing” fees are incurred at the
          DEA’s request.

      •   any travel expenses have the appropriate [DELETED] signature
          on the Request for Out of State Travel Authorization forms and
          the authorization is attached.

      •   the State Employee Travel reimbursement Request and
          accompanying receipts are attached.

      •   written approval for overtime is attached.

   The procedures drafted by the DEA for reviewing the [DELETED]
   invoices and overseeing the reimbursable agreement are a positive
   step towards ensuring that the costs claimed by the [DELETED] and
   paid by the DEA are in accordance with the terms of the reimbursable
   agreements. However, the checklist for reviewing the [DELETED]
   invoices needs to be expanded to insure the improper payments that
   we noted during the audit are not repeated. Specifically, the checklist
   should contain items for reviewing invoices to ensure that:

      •   the total payments under the agreement do not exceed the total
          costs allowed under the agreements and that modifications to
          increase the agreements are approved, signed, and documented
          in the agreement files; and

                                    49

                         REDACTED VERSION
                     REDACTED VERSION



  •   costs billed by the [DELETED] are specifically allowed by the
      agreements before being paid.

This recommendation can be closed when we receive a copy of the
final expanded checklist for reviewing the [DELETED] Public Vouchers.




                               50

                     REDACTED VERSION
